No. 19-123

 

IN THE

Supreme Court of the Anited States

SHARONELL FULTON, ET AL.,
Petitioners,
Vv.
CITY OF PHILADELPHIA, ET AL.,

Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Third Circuit

BRIEF OF AMICI CURIAE
THE ANNIE E. CASEY FOUNDATION,
THE RAIKES FOUNDATION, THE CONRAD N.
HILTON FOUNDATION, AND THE REDLICH
HORWITZ FOUNDATION IN SUPPORT OF
RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,952 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2020.

( Ha
Colin Casey Hégan

Wilson-Epes Printing Co., Inc.
